an-7i2i
Supreme Court, U.S.
FILED

DEC 2 4 2020

IN THE

SUPREME COURT OF THE UNITED ST ATF,S3ffice of the clerk

GEORGES MICHEL,

Petitioner,
v.

UNITED STATES OF AMERICA,

Respondent.

On Petition for Writ of Certiorari to the United States Court
of Appeals for the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

GEORGES MICHEL
7900 Harbor Island Drive, Apt. 906A
North Bay Village, Florida, 33141
Pro se Counsel

NO.:

IN THE
SUPREME COURT OF THE UNITED STATES

GEORGES MICHEL,

Petitioner,
v.

UNITED STATES OF AMERICA,

Respondent.

On Petition for Writ of Certiorari to the United States Court
of Appeals for the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

GEORGES MICHEL
7900 Harbor Island Drive, Apt. 906A
North Bay Village, Florida, 33141
Pro se Counsel

QUESTIONS FOR REVIEW

I.

In Apprendi v. New Jersey, 120 S.CT. 2348 (2000)], the Supreme Court held

that “any fact, other than a prior conviction, that increases the penalty beyond the
prescribed statutory maximum must be submitted to a jury and proved beyond a
reasonable doubt.” (Id. at 2362-63). The statute under which petitioner, Mr.
Michel, was convicted, 21 U.S.C. § 841, provides a range of statutory penalties
that depends, in part, upon the quantity of drugs attributed to the defendant. For a
defendant, such as appellant Michel, with no prior felony drug convictions, the
minimum penalty range under § 841 is zero to twenty years. 21 U.S.C. § 841
(b)(1)(C) (2000). For possession of at least five kilograms of cocaine, the
maximum available sentence under § 841 rises to life imprisonment. 21 U.SC. §
841 (b)(1)(B). Accordingly, if the drug quantity attributed to a defendant is not
submitted to a jury, the statutory maximum under § 841 is twenty years pursuant
to § 841 (b)(1)(C), which requires no finding of drug amount. And, under
Eleventh Circuit law, a defendant sentenced under the, then, mandatory
Sentencing Guidelines must be sentenced under a “specific” base offense level
and guidelines range, as shown below. In this case, after the Court of Appeals
reversed Mr. Michel’s sentence based on the Apprendi Rule, the lower court,
again, and in violation of Apprendi, made yet another drug quantity determination
l

k

and reimposed another illegal sentence contrary to this Court’s decision in
Apprendi, which was subsequently affirmed by the Eleventh Circuit Court of
Appeals, and is the basis for this appeal and petition.
The question for this Court to decide is “whether the Court of Appeals erred,
reversibly, in affirming the district court’s decision—making a drug quantity
determination, after the Remand—where the sentence, again, exceeded the
authorized statutory maximum [for Apprendi purposes] which is the maximum
authorized based solely on the jury’s verdict alone?”

II.

In United States v. Booker, 543 U.S. 220 (2005), the Supreme Court, with

respect to the Organizer and/or Leadership Role enhancements, stated that this
factor, like the drug quantity determination, “violated Apprendi because neither
were found by a jury beyond a reasonable doubt.” In Booker, the Justices made
observations as it relates to Prosecutors seeking to enhance a defendant’s sentence,
and what it would require in order to conform with the dictates of the, then, new
Apprendi Rule. There, JUSTICE STEVENS observed, and pointed to two analysis
of, what was required for prosecutors to lawfully seek enhancements of the
particular defendant’s sentence. Specifically, Justice Stevens, in the second
analysis, stated, in relevant part, that:
li

“Enhancing the specificity of indictments would be a
simple matter... The Government has already directed its
prosecutors to allege facts such as ... the defendant was
an organizer or leader ... in the indictment and prove
them to the jury beyond a reasonable doubt.”
Booker, 543 U.S. at 277-78. (emphasis added) In appellant’s case, the Government
failed, completely, to comply with the Justices’ “observances” so as to comply
with Apprendi and the Sixth Amendment guarantee when appellant’s sentence was
“enhanced” by three-levels based solely on the government’s request and the lower
court’s finding that Mr. Michel was in a leadership role. Therefore, this error is not
harmless as it is a constitutional violation of the Sixth Amendment and Fifth
Amendment’s Due Process of Law doctrines.
The question for this Court to decide is “whether the Court of Appeals erred,
reversibly, by affirming the lower court’s factual finding, without a jury finding,
regarding leadership or organizer role and imposing a sentence that exceeded the
authorized statutory maximum for Apprendi purposes?”

m

CERTIFICATE OF INTERESTED PERSONS
Petitioner, Georges Michel, certifies that the following list of persons have
an interest in the outcome of this appeal, and that all, save for the Petitioner/CoDefendant, are from the Southern District of Alabama.
1. The United States Court of Appeals for Eleventh Circuit
2. The Honorable Jeffery U. Beaverstock (United States District Judge).
3. The Honorable Charles R. Butler, Jr. (U.S. Dist. Court Trial Judge).
4. United States Attorney (Mobile, Alabama)
5. Mr. Paul Brown (Trial Attorney) (Mobil Ala.).
6. Mr. Arthur Madden (Sentencing Atty.) (Mobil Ala.).
7. Mr. James Armstrong (Co-Defendant).
8. Mr. George Michel (Petitioner) Pro se.

IV

TABLE OF CONTENTS
QUESTIONS FOR REVIEW

1-111

INTERESTED PARTIES

IV

TABLE OF CONTENTS

V-Vll

TABLE OF AUTHORITIES

vm

PETITION

1

OPINION BELOW

2

STATEMET OF JURISDICTION

2

STATUTORY AND OTHER PROVISION

2-3

STATEMENT OF THE CASE

4-7

REASONS FOR GRANTING THE WRIT

7-8

I. This Court should determine, or clarify, whether the Eleventh Circuit Court of
Appeal’s affirmance of the lower court’s decision violated the Apprendi rule of law
where the sentencing judge made a drug determination, on Remand, not found by
the jury, and resentenced petitioner beyond the authorized statutory maximum “for
Apprendi purposes.”
II. This Court should determine, or clarify, whether the Eleventh Circuit Court of
Appeal’s affirmance of the lower court’s decision violated the Apprendi and/or
Booker rule of law where the sentencing judge made a determination, without a
jury finding, that petitioner was a Leader or Organizer and imposed a sentence
therefrom in violation of the Sixth Amendment right to trial by jury and violation
of the Fifth Amendment Due Process Clause.
v

III. This Court should determine, or clarify, whether the Eleventh Circuit Court of
Appeal’s affirmance of the lower court’s decision violated its own, as well as this
Court’s, decision(s)— United States v. Jordan, 915 F.2d 622, 624-25 (11th Cir.
1990) and Andrews v. United States, 373 US 334, 83 S. Ct. 1236, 10 L. Ed. 2d 383
(1963)—when the Court of Appeals failed to address the merits of, or alternatively
assuming it did address the merits, erred in failing to grant relief on the Apprendi
claim. In Jordan, supra, citing Andrews, supra, the Court held that “Federal courts
have long recognized that they have an obligation to look behind the label of a
motion filed by a pro se inmate and determine whether the motion is, in effect,
cognizable under a different remedial statutory framework.'’'’ (all emphasis added).
ARGUMENT ISSUE ONE

9-19

ARGUMENT ISSUE TWO

20-21

ARGUMENT ISSUE THREE

22-24

CONCLUSION

25

CERTIFICATE OF COMPLIANCE

26

CERTIFICATE OF SERVICE

26

INDEX TO APPENDIX

27

Judgment Imposing Sentence

(App. A)

Decision of Court of Appeals Eleventh Circuit United States v. James Armstrong/
vi

George Michel, No. 98-6933

(App. B)

Re-Sentencing Transcript of 8/13/2001

(App. C)

Re-Sentencing Transcript of 12/3/2001

(App. D)

Amended Judgment in Criminal Case

(App. E)

Decision of the District Court, Southern District of Ala., United States v. Michel,
Case 95-00176-JB (Rule 36 Motion

(App. F)

Decision of the Court of Appeals Eleventh Circuit, United States v. George Michel,
No. 19-15037 (June 22, 2020)

(App. G)

Rehearing En Banc, Michel v. U.S., No. 19-15037 (9-30-2020)
Mandate Issuance (10-08/2020)

(App.-H-l)
(App. -H-2)

Vll

TABLE OF AUTHORITIES
CASES;
Andrews v. United States, 373 US 334 (1963)
Apprendi v. New Jersey, 120 S.CT. 2348 (2000)
Blakely v. Washington, 542 U.S. 296 (2004)

vi, 22
i,

passim

11, 14, 15, 17

Cunningham v. California, 549 U.S. 270 (2007)

14

Glover v. United States, 531 U.S. 198 (2001)

21

In re Winship, 397 U.S. 358 (1970)

8

Means v. Alabama, 209 F.3d 1241 (11th Cir. 2000),

23

Ring v. Arizona, 536 U.S. 584 (2002)

14

Sanders v. United States, 373 U.S. 1, 24, 83 S. Ct. 1081 (1963)

24

Southern Union Co. v. United States, 132 S. Ct. 2344 (2012)

14

United States v. Armstrong/Michel, No. 98-6933 (11th Cir. 2001)
United States v. Booker, 543 U.S. 220 (2005)

4

ii, iii, 7, passim

United States v. Jordan, 915 F.2d 622, 624-25 (11th Cir. 1990)

,vi, 23

United States v. Michel, No. 19-15037 (11th Cir. 2020).........

2

United States v. RLC, 503 U.S. 291 (1992)
United States v. Marshall White, No. 00-11447 (11th Cir. 2001)
Wade v. Mayo, 334 U.S. 672

9, 10, 19
5, 12, 17, 19
24

Vlll

OTHER STATUTES AND AUTHORITIES
Const. Amend. 5

iii, v, 2, 21

Const. Amend. 6

iii, v, 3, 21

Fed. R. Crim. P. 36

5,22

SUP. CT. R. 13.1 & PART III

2

18 U.S.C. § 3553(b)

10, 11

21 U.S.C. § 841(b)(1)(C)

i, 9, 19

21 U.S.C. § 841(b)(1)(B)

i,9

28 U.S.C. § 1254

2

28 U.S.C. §2241

5, 6

28 U.S.C. § 2255

23

IX

NO.:

IN THE
SUPREME COURT OF THE UNITED STATES

GEORGES MICHEL,

Petitioner,
v.

UNITED STATES OF AMERICA,

Respondent.

On Petition for Writ of Certiorari to the United States Court
of Appeals for the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

Georges Michel respectfully petitions the Supreme Court of the United States
for Writ of Certiorari to review the judgment of the United States Court of Appeals
1

for the Eleventh Circuit, rendered and entered in Case No. 19-15037 on June 22,
2020, in United States v. Michel, (App. [Exhl G) which affirmed the judgment of
the United States District Court for the Southern District of Alabama. (App. IExh.1

E)
OPINION BELOW
A copy of the decision of the United States Court of Appeals for the Eleventh
Circuit’s Order denying the petition for Rehearing and Rehearing En Banc is
attached as well as a summary of Mandate. (App. lExh.l H 1-2)
STATEMENT OF JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1) and
PART III of the Rule of the Supreme Court of the United States. This petition is
timely filed pursuant to SUP. CT. R. 13.1.

STATUTORY AND OTHER PROVISIONS INVOLVED
Petitioner intends to rely upon the following constitutional provisions,
treaties, statutes, rules, ordinances and regulations:
U.S. Const, amend. V:
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the militia, when in actual
service in time of war or public danger; nor shall any
person be subject for the same offense to be twice put in
2

jeopardy of life or limb, nor shall be compelled in any
criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without the due
process of law; nor shall private property be taken for
public use without just compensation.
U.S. Const, amend. VI:
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial jury
of the State and district wherein the crime shall have
been committed, which district shall have been
previously ascertained by law, and to be informed of the
nature and cause of the accusation; to be confronted with
the witness against him; to have compulsory process for
obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.

3

STATEMENT OF THE CASE
Procedural History
1. Petitioner was convicted on March 20, 1998 (Doc. 320) after a Federal
Grand Jury returned a ten-count indictment charging appellant with various drug
conspiracies—the jury convicted appellant of Counts 1, 2, 4, 5, 6, and 10, but
Count 3 was dismissed by motion of the Government). (Ann. A-11
2. At the initial Sentencing Hearing, the district court made a drug finding only
as to Count Ten of the Indictment, stating that it did “not need to get into the rest of
the counts,” and having made no further determination of drug quantities, the
Government did not object nor appeal the judge’s decision not to make a drug
quantity determination. The district court then imposed a prison sentence of 400
months of imprisonment plus 5 years of Supervised Release. (Id.)
3. Petitioner filed a timely Notice of Appeal (NOA) to the Eleventh Circuit
challenging his convictions and sentences alleging various errors, and on February
15, 2001 the Court reversed petitioner’s conviction, on Count Ten (Theory of
Defense and/or Jury Instruction violations); and the Court also reversed each of his
sentences (Counts 1,2,4,5, and 6) on an Apprendi error (fail to submit drug quantity
to jury) (See U.S. v. Armstrong & MicheL No. 98-6933 (11th Cir. 2001) in an
unpublished opinion). (App. A-2)
4

4. On August 13, 2001 at the Resentencing Hearing, the district court
rescheduled the Hearing after counsel for petitioner pointed out the law of the
Eleventh Circuit and argued that “level twelve was the highest level applicable
under U.S. v. Marshall White, No. 00-11447 (11th Cir. 2001) (Unpublished) (App.
A-9);” and (Resentencing of 8/13/2001, Vol. 1 at pages 2-9) (App. A-3)
5. Various Resentencing Hearings were called to order in this, and the co­
defendant’s, case before the district court finally made a sentencing determination
in this case after the Remand from the Court of Appeals. In that final Sentencing
Hearing in which—representing himself pro se after his attorney Mr. Arthur
Madden was allowed to withdraw as counsel of record—over petitioner’s
objections, the district court imposed an aggregate sentence of 360 months
imprisonment. (Sent. Hearing 12/ 3/ 2001—Vol. One at pg. 201 (App. A-41
6. On 12/18/2001 the lower court entered the Amended Judgment
(dismissing Counts 3 and 10 on motion of government) (App. A-5 ) and on June 7,
2019, petitioner sought to correct his sentence by filing a “Motion to Correct
Clerical Error Pursuant to Federal Rule Criminal Procedure 36 and/or Alternatively
as a 2241 Habeas Petition.” (Doc. 820 U.S.D.C., S.D. Ala.)
7. On November 21, 2019, the district court determined that the Motion to
5

Correct Clerical Errors was not the appropriate forum to challenge petitioner’s
claim(s) even under Section 2241 Habeas Corpus provision, and DENIED the
Motion stating it would have denied it otherwise under § 2241. (App. A-6)
8. Petitioner timely filed a Notice of Appeal and, on June 22, 2020, the
Court of Appeals affirmed the lower court’s decision; and on October 8, 2020, the
Mandate issued. (App. A-7) This timely petition follows.
Facts.
DRUG QUANTITY POST-APPRENDh
Petitioner was convicted on six (6) counts of the indictment which included:
(a) Count One (b) Count Two (c) Count Four (d) Count Five, (e) Count Six, and
(f) Count Ten [Count Three of the second superseding indictment was dismissed
On motion of the United States] (App. A-l). Petitioner was sentenced under the,
then, Mandatory Sentencing Guidelines which are not questionable in this appeal.
There, the jury was not asked to make drug quantity determinations because the
laws, at that time, under Apprendi v. New Jersey, were not yet established or made
applicable. Therefore, when applied to petitioner’s direct review, based on
Apprendi, the Court of Appeals reversed all of petitioner’s sentences, including his
conviction under Count Ten of the Indictment. At the resentencing hearing, the
judge made drug calculations over petitioner’s objections
6

, who represented himself, and reimposed a sentence beyond the Apprendi
requirements. The Court of Appeals affirmed, under what appears to be the lower
court’s reasoning that “it could make a drug quantity determination [without
violating Apprendi].”
ORGANIZEER/LEADERSHIP ROLE/ U.S. v. BOOKER. 543 U.S. 220:
With respect to the “Organizer” and/or “Leadership” role enhancements, as
the latter was applied to petitioner, the district court, at Resentencing, applied a
three-level enhancement upon appellant after rejecting the Government’s request
for a four-level Leadership enhancement. (Govt’s Br. at 6, f 4; at 7, |f 1) This
factor, like the drug quantity determination, violated Apprendi because it was not
found by a jury beyond a reasonable doubt; and, the fact that the enhancement
caused the sentence to exceed the Apprendi statutory maximum based on the jury’s
verdict alone, as announced, also, in Booker, 543 U.S. at 278.
REASONS FOR GRANTING THE WRIT
This case presents questions of exceptional and potentially recurring national
importance. First, is the question whether a district court may, contrary to a
Supreme Court decision, make a post-Apprendi drug quantity determination,
ignore the mandatory provisions of the Federal Sentencing Guidelines which
establishes the Apprendi rule for statutory maximums of particular defendant, and
7

apply the pre-Apprendi statutory maximum—under the statute per se rather than
the maximum for Apprendi purposes:—in order to reimpose the initial illegal
sentence that was reversed on Apprendi grounds?
Secondly, this case also present questions of exceptional and potentially
recurring national importance as to whether the Court of Appeals’ decision
affirming the lower court’s decision regarding Organizer and Leadership roles
would continue to subject persons, in one part of the country, to enhanced
sentences without the jury making the factual finding while defendants in separate
areas are not?
Thirdly, is the question whether, and to what extent, a district court, and/or a
Court of Appeals, may decline/refuse to address the merits of a claim, in its
discretion, where this Court’s decision mandates lower courts, without discretion,
to apply any available remedy at law that provides relief regardless of the title
attached to the {pro se\ motion or petition [in order to conform with the Due
Process Clause, the Sixth Amendment, and In re Winship, 397 U.S. 358 (1970)].”

8

ARGUMENT ONE
THE COURT OF APPEALS ERRED IN
AFFIRMING
THE
DISTRICT
COURT’S
DECISION OF MAKING A POST-APPRENDI
DRUG QUANTITY DETERMINATION THAT
IMPOSED A PENALTY BEYOND THE APPRENDI
STATUTORY MAXIMUM AS REACHED BY THIS
COURT USING THE FEDERAL SENTENCING
GUIDELINES MAXIMUM AND NOT THE
MAXIMUM REFLECTED BY THE STATUTE OF
THE OFFENSE
In this case, the Court of Appeals reversed petitioner’s sentences under the
Apprendi rule, which required the jury, rather than a judge, to make factual
findings, including drug quantity and leadership roles, that increased a defendant’s
sentence beyond the “Apprendi statutory maximum” rather than the maximum for
the offense under the statute,” as defined under the statute itself. That is, the
Apprendi statutory maximum, here, refers to the maximum penalty authorized by
the Federal Sentencing Guidelines and not the statute of conviction (§ 841(b)(1)(B)
or (C)).
This was demonstrated in United States v. RLC, 503 U.S. 291 (1992) where
this Court clarified the meaning of “authorized statutory maximum” for purposes
of the Federal Sentencing Guidelines. There, this Court held, in relevant part, that:
“We hold that this limitation refers to the maximum
sentence that could be imposed if the juvenile was being

9

sentenced after application of the United
Sentencing Guidelines.”

States

There, this Court, in defining the meaning of “authorized maximum sentence,”
rejected the Government’s argument that “authorized” must refer to the “maximum
term of imprisonment provided by the statute defining the offense.” This Court
explained that:
“At least equally consistent, and arguably more natural,
is the construction that “authorized’ refers to the result of
applying all statutes with a required bearing on the
sentencing decision, including not only those that
empower the court to sentence but those that limit the
legitimacy of its exercise of that power, including §
3553(b), which requires application of the Guidelines and
caps [a] ...sentence at the top of the relevant Guidelines
range, absent circumstances warranting departure.”
U.S. v. RLC, 503 U.S. at 297-298.

Clearly this Court demonstrated that the

Federal Sentencing Guidelines “rawge” sets the “authorized” maximum, and not
the statute defining the offense. Moreover, this Court went on to explain that:
“Where the statutory provision applies, a sentencing
court’s concern with the Guidelines goes solely to the
upper limit of the proper Guidelines range as setting the
maximum term for which a [defendant] may be
committed to official detention, absent circumstances that
would warrant departure under § 3553(b).” (emphasis
added)
(Id., at 306-307). This Court also explained, previously, that “Congress’ purpose

10

today can be achieved only by reading “authorized” to refer to the maximum
sentence that may be imposed consistently with $ 3553(b).” which is, in fact, the
Federal Sentencing Guidelines. (Id., at 298-305") Without questioning the authority
of this Court’s decision, in RLC, there can be no question as to what constitutes the
authorized statutory maximum term of imprisonment, absent a jury verdict, under
the, then, applicable mandatory Guidelines for which petitioner was sentenced
under.
Additionally, in clarifying Apprendi’s “statutory maximum,” or what
constitutes a defendant’s “statutory maximum,” this Supreme Court held that:
“Statutory maximum for Apprendi purposes is the
maximum sentence a judge may impose solely on the
basis of the facts reflected in the jury verdict or admitted
by the defendant.” (all emphasis added)
See Blakely v. Washington, 542 U.S. 296, 303, 159 L. Ed. 2d 403, 124 S. Ct. 2531
(2004). The Blakely court went on to say that, “while judges may exercise
discretion, they may not “inflict punishment that the jury’s verdict alone does not
allow.”” (Id., at 304) (emphasis added). In the instant case, the judge, during
Resentencing, stated:
“I can still find by a preponderance [of the evidence the
drug quantity] as long as I don’t exceed the statutory
cap.”

(App. A-3 at 8, L. 6-9) (Resentencing Hearing). More troublesome, however, is
11

the fact that after petitioner, who was proceeding without counsel, argued that “[he
had an] Apprendi error,” (App. A-4 at 10, L.l-4) the district court somehow
determined that the Court of Appeals’ decision did not matter; and by its actions,
went on to state that:
“And the Court finds, by a preponderance of the
evidence, that on each of the counts of conviction, other
than Count 10, which is no longer before the Court, that
there was a conspiracy in Count One, Four and Five to
import a hundred and fifty kilograms or more of cocaine.
And Count Two and Six a conspiracy to possess with
intent to distribute cocaine. Which results in a sufficient
basis for the findings in paragraph 24, [of] the original
presentence report, that the offense level should which
(sic) a [level] thirty-eight... That means, Mr. Michel,
.. .that your criminal history is a four, your offense level
is a forty-one... that would result in a guideline range of
three hundred and sixty months to life.”
(See App. A-4 at 14. L. 16-25: at 15. L. 1-6: at 16. L. 6-13).

This

determination, based on the judge’s drug quantity findings, resulted into a range of
penalties, not found by the jury (360-Life) as opposed to the 21-27-month range
absent a jury finding, as determined by the Eleventh Circuit Court of Appeals in
U.S. v. Marshall White (11th Cir. 2001) (Unpublished) (App. A-9); and (See
Resentence Hearing of August 13, 2001, Vol. 1 at pages 2-9) (App. A-3).
In White, a post-Apprendi decision, the Eleventh Circuit Court of Appeals
held, as counsel for petitioner argued before the district court (App. A-9 at 2) that:
12

“Because there was no determination of drug quantity at
trial or at the first sentencing hearing, the Government is
not entitled to a quantity determination for purposes of
sentencing that exceeds the lowest possible amount
according to the Sentencing Guidelines. Therefore, ... the
district court shall sentence White in accordance with the
lowest Guideline offense level of 12. VACATED and
REMANDED, with instructions.” fall emphasis added)
White, supra. In petitioner’s case, counsel argued that, “[a]t sentencing, the
government had an opportunity to put on evidence and require the court to make a
factual determination as to drug quantity [but did not], fid., at 6) just as in White,”
supra. Therefore, like the Court held in White, “base offense level 12 applies”
because the district court made “no drug quantity determinations” at “trial or the
first sentencing hearing” on counts 1, 2, 4, 5, or 6, the counts of convictions
involved in this, the current, appeal, fGovt’s Br. at 2, |f 3k fid., at 4, jf 3) (district
court stating it only “determined drus quantity on count ten, not counts 1, 2, 4, 5,
and 6” of the indictment; and Count Ten was vacated by the Court and later
dismissed by the government [with prejudice]) fsee also, Tr. R„ Vol, I—Transcript
of Resentencing of Aug. 13, 2001, at 2, L. 14-20—Or Exh. C at 2). Here, petitioner
is in the exact situation as was White, supra, and the rulings should, likewise,
correspond with each other to avoid conflicting opinions.

13

This, the above, holds true as a matter of law because the Supreme Court,
applying Apprendi to Blakely’s case on appeal, explicitly showed the prime
example, using the facts of Blakely’s case. There, based on the jury’s verdict alone,
Blakely’s conduct called for 53 months imprisonment, but the State wanted to
apply an enhancement, not found by the jury’s verdict, and stated that the
enhancement “was not problematic under Apprendi because the statutory maximum
was 10 years, not 53 months.” But, “[t]he Court read Apprendi as having held that
the “statutory maximum” punishment was “the maximum sentence [the judge] may
impose without any additional findings... Accordingly... the judge could not
...enhance Blakely’s sentence above the 53-month statutory maximum [guidelines
sentence].” This ruling is cemented in stone, as the Court has repeatedly reaffirmed
its Apprendi ruling. This same rule of law applies equally to Mr. Michel’s case, the
petitioner. See, for many of the examples, Blakely, 542 U.S. at 303 (increased
imprisonment above statutorily prescribed “standard range”); United States v.
Booker, 543 U.S. 220 (2005) (increased imprisonment range under, then,
mandatory Federal Sentencing Guidelines); Cunningham v. California, 549 U.S.
270 (2007) (elevated “upper term” of imprisonment); Ring v. Arizona, 536 U.S.
584 (2002) (death penalty authorized by finding of aggravating factors); and,
Southern Union Co. v. United States, 132 S. Ct. 2344 (2012) (applying Apprendi to
14

Fines that require jury findings).
(a)

CLARIFYING APPRENDI RULE VIA BOOKER

Explaining that Blakely did not establish that a judge could not make
findings that the jury did not, but stressing when and how it operates, as it should
have been and should be in petitioner’s case, here, on appeal, this Court explained
that:
[Ojur holding in Parts I-III ... that Blakely applies to the
Guidelines does not establish the impermissibility of
judicial factfinding ... Instead, judicial fact finding to
support an offense level determination or enhancement is
only unconstitutional when that finding raises the
sentence beyond the sentence that could have lawfully
been imposed by reference to facts found by the jury or
admitted by the defendant.” (italic emphasis added)
Booker, 543 U.S. at 278. That “crucial distinction” aforehand mentioned by this
Court, above, is also important to Mr. Michel’s case in that the district court, on
Resentencing, violated the Apprendi Rule, as stated by the Government’s brief
showing that:
“At resentencing for counts one, two, four, five, and six
of the indictment, the district court made a finding of
facts that [petitioner’s] crimes involved more than 150
kilograms of powder [cocaine] and that [petitioner]
played a leadership role in the conduct underlying count
ten of the indictment.” (emphasis added)
(Govt’s Br. at 2. |f 3] As shown below, even the “leadership role” enhancement did
15

violate Apprendi. Concerning the “holding in Parts I-III,” of the preceding page,
the Booker Court went on to give an example which unequivocally demonstrates
that Mr. Michel’s, petitioner’s, “statutory maximum” was BOL 12 and category 4
equaling 21-27 months maximum imprisonment on each count of conviction.
There, this Court stated:
“Consider, for instance, a case in which the initial
sentencing range under the Guidelines is 130-to-160
months, calculated by combing a base offense level of 28
and a criminal history category of V. See USSG ch. 5, pt.
A (Table). Depending upon the particular offense, the
sentencing judge may use her discretion to select any
sentence within this range, even if her selection relies
upon factual determinations beyond the facts found by
the jury. If the defendant described above also possessed
a firearm, the Guidelines would direct the judge to apply
a two-level enhancement under § 2D 1.1, which would
raise the defendant’s total offense level from 28 to 30.
That, in turn, would raise the defendant’s eligible
sentencing range to 151-to-188 months. That act of
judicial fact-finding would comply with the Guidelines
and the Sixth Amendment so long as the sentencing
judge then selected a sentence between 151-to-162
months—the lower number (151) being the bottom of
offense level 30 and the higher number (162) being the
maximum sentence under level 28, which is the upper
limit of the range supported by the jury findings alone.
This type of overlap between sentencing ranges is the
rule, not the exception, in the Guidelines as currently
constituted.”
Booker, 543 U.S. at 279. Therefore, in the case of this petitioner, Mr. Michel,
consider petitioner’s initial sentencing range under the Guidelines is 21-27 months,
16

calculated by combining a base offense level of 12 and a criminal history category
of 4 (compare United States v. Marshall White, No. 00-11447 (11th Cir. 2001))
(App. A-9), the sentencing judge, here, may use her discretion to select any
sentence within this range (21-27 months), even if her selection relies upon factual
determinations beyond the facts found by the jury. The three-level enhancement,
for leadership role, does not apply in this case, as shown below, therefore, the
“statutory maximum” for appellant is “27 months” on each crime of conviction.
Applying Apprendi to the Federal Sentencing Guidelines, under United
States v. Booker, 543 U.S. 220 (2005), and applying the principles established in
Blakely v. Washington, 542 U.S. 296 (2004), petitioner’s guideline sentenced, on
Remand, could not exceed the lowest possible base offense level, based on the fact
that no jury made a drug quantity determination, as expressed by the Court in
United States v. Marshall White, supra, i.e., a base offense level 12, and as applied
here, with a category 4 yielding a range of 21-27 months imprisonment on each
offense of conviction. And, because the offenses must be grouped, under the
Guidelines, they cannot be imposed consecutively.
In this case, the Government argued that “th[e Eleventh Circuit] rejected
Michel’s Apprendi argument because Apprendi does not prohibit a sentencing
court from imposing consecutive sentences on multiple counts of convictions as
17

long as they are within the applicable statutory maximums.” (Govt’s Br at 17, jf 1)
While petitioner agrees that Apprendi contains no provisions to prohibit a court
from imposing consecutive sentences on multiple counts of convictions as long as
they do not exceed the authorized statutory maximum as defined by the law, the
problem, there, as shown by White and RLC, supra, as defined by this Court, is that
the sentences, on each count of conviction, does, in fact, exceed the statutory
maximum (27-months imprisonment) “for Apprendi purposes.” See Blakely (53month maximum—Guidelines Range), Booker (Guidelines Maximum Range),
RLC (Guidelines maximum Range), and White (Guideline Maximum Range),
supra. Petitioner’s Guidelines range also constitutes his statutory maximum
penalty.
Even assuming, for arguments sake, that the sentences could run
consecutively, the total term of imprisonment for counts 1, 2, 4, 5, and .6
consecutively could only result into five 27-month terms of imprisonment for a
total term of 135 months imprisonment or 11 years and 3 months under the rule as
established in Apprendi and RLC, supra. Here, petitioner has served more than
twenty-two and a half (22 years and ten months) consecutive years of
imprisonment, which “exceeds” the Apprendi statutory maximum, worst case
scenario, of 135-months imprisonment. The district court erroneously believed that
18

because petitioner’s sentence was to be imposed under 841(b)(1)(C), a twenty-year
offense statutory maximum, that the court had the authority to somehow still make
a drug quantity determination that would place petitioner in a “higher base offense
level {360-Life, based on judicial finding of drug amount)” than what the jury
verdict alone called for, which is a base offense level of 12 (the lowest level
without a jury or judge’s finding of drug quantity). See United States v. Marshall
White and RLC, supra. The district court erred when it exceeded the scope of the
Remand Mandate, which required only that the court apply the Guidelines for no
drug quantity. Because the district court imposed a 30-year sentence, nearly three
times the authorized statutory maximum under Apprendi and RLC, petitioner is due
immediate release.
The Court of Appeals’ affirmance of the lower court’s sentence, based on
the “statute of the offense” rather than on the “Apprendi statutory maximum'1'1
constitutes reversible error. This Court, in the interest of justice should intervene,
vacate, and remand this case with directions to vacate petitioner’s sentences to
reflect a sentence using the framework established by Apprendi.

19

ARGUMENT TWO
THE COURT OF APPEALS ERRED IN
AFFIRMING
THE
DISTRICT
COURT’S
DECISION OF MAKING A POST-APPRENDI
DETERMINATION FOR LEADERSHIP ROLE
THAT WAS NOT MADE BY THE JURY WHICH
INCREASED THE PETITIONER’S SENTENCE
BEYOND THE STATUTORY MAXIMUM FOR
PURPOSES OF APPRENDI V. NEW JERSEY RULE
LEADERSHIP ROLE ENHANCEMENT
With respect to the “Organizer” and/or “Leadership” role enhancements, as
the latter was applied to petitioner, the district court, at Resentencing, applied a
three-level enhancement after rejecting the Government’s request for a four-level
Leadership enhancement. (App. A-4 at 14-16) and (Govt’s Br. at 6, f 4; at 7, f 1)
This factor, like the drug quantity determination, violated Apprendi because neither
were “found by a jury beyond a reasonable doubt.” In Booker, the Justices made
observations as it relates to Prosecutors seeking to “enhance” a defendant’s
sentence, and what it would require in order to conform with the dictates of the,
then, new Apprendi Rule.
There, Justice Stevens observed what was required for prosecutors to
lawfully seek enhancements of a defendant’s sentence. Stating, in part, that:
“Enhancing the specificity of indictments would be a
simple matter... The Government has already directed its
prosecutors to allege facts such as ... the defendant was
20

an organizer or leader ... in the indictment and prove
them to the jury beyond a reasonable doubt”

Booker, 543 U.S. at 277-78. (emphasis added) In petitioner’s case, the Government
failed to comply with Apprendi and the Sixth Amendment guarantee when
petitioner’s sentence was enhanced by three-levels based on the “leadership” role
found by the lower court and affirmed by the Court of Appeals. (App. A-4 at 1416)

Therefore, this error is not harmless as it is a constitutional violation of the

Sixth Amendment and Due Process of Law where, under any view, petitioner’s
sentence (360 months or 30 years) exceeds the Apprendi statutory maximum of
either 27 months or the 135-month sentence assuming the court was authorized to
impose the five 27-month prison terms consecutively. This Court has made clear
that:
“[A]ny amount of additional jail time has Sixth
Amendment significance.”
Glover v. United States, 531 U.S. 198 (2001) (where a 6-21-month additional term
of imprisonment was held “insignificant” for Sixth Amendment purposes, but
reversed by this Supreme Court). Therefore, Mr. Michel’s sentence must, as a
matter of law, be reversed, remanded, and corrected under the framework of
Apprendi, supra.

21

ARGUMENT THREE
THE COURT OF APPEALS ERRED IN
AFFIRMING
THE
DISTRICT
COURT’S
DECISION FOR FAILING TO INTERPRET
PETITIONER’S
MOTION
UNDER
ANY
AVAILABLE STATUTE THAT WOULD PROVIDE
RELIEF AND WAS ERROR UNDER THIS
COURT’S DECISION REQUIRING REVERSAL
The Government’s argument—that the District Court Properly Denied
Michel’s Rule 36 Motion—and that the district court’s order, summarily, denying
appellant’s Motion [without addressing the merits] as being “outside the scope of
Rule 36,” is clearly erroneous as a matter of law under this Court’s precedent.
While petitioner’s motion may have exceeded the scope of Rule 36 per se, such
does not end the district court’s inquiry as to whether petitioner was entitled to
relief; or, at the very least, whether appellant was entitled to have his claim
addressed “on the merits” under some other applicable provision that would have
provided the court authority to grant the relief sought.
Assuming, for argument’s sake, that Rule 36 is not the proper vehicle for,
pro se, petitioner to have invoked the court’s authority and/or jurisdiction to
entertain, on the merits, his claim for relief, this Court has held, in relevant part,
that federal courts must look beyond the labels of motions filed by pro se inmates
to interpret them under whatever statute that provides relief. Andrews v. U.S., 373
22

U.S. 334, 83 S. Ct. 1236, 10 L. Ed. 2d 383 (1963) (cited in United States v. Jordan,
915 F.2d 622, 624-25 (11th Cir. 1990). There, the Eleventh Circuit Court of
Appeals held:
“That Jordan mislabeled his petition, however, is not
fatal to his claim. Federal courts have long recognized
that they have an obligation to look behind the label of a
motion filed by a pro se inmate and determine whether
the motion is, in effect, cognizable under a different
remedial statutory framework.'1'1 (Citing Andrews v.
United States, 373 US 334, 83 S. Ct. 1236, 10 L. Ed. 2d
383 (1963)). (all italic emphasis added, except term ‘‘‘pro
se” as in original)
In Jordan, the district court did, in fact, look behind the label of the motion and
properly interpreted it under the correct label (§ 2255). There, the Eleventh Circuit
stated that “[t]hus, the proper inquiry in this case [wa]s whether the district court
was correct in treating Jordan’s claim as cognizable under § 2255,” of which th[e]
Court agreed.
Conversely, however, in the instant case, the district court failed to
determine whether petitioner’s claim provided relief under any provision, other
than § 2241 of which was an alternative provision asserted by petitioner, and, as
such, the court summarily denied the Rule 36 Motion without further inquiry. For
this reason, and based on the Eleventh Circuit Court’s binding authorities,
including Means v. Alabama, 209 F.3d 1241 (11th Cir. 2000), the Court should find
23

that the district court erred, reversibly, in its actions of summarily denying
petitioner’s Rule 36 motion without applying the protections afforded under the
circumstances of the case. That is, petitioner’s case is clearly, under the Apprendi
line of cases, a miscarriage ofjustice wherein petitioner has been compelled to
serve an additional prison term exceeding a decade (10 years), or possibly more
than twenty-years (20 years), longer in prison than required under Apprendi.
In order to preserve the integrity of this Court’s line of Apprendi decisions, this
Court should vacate the Court of Appeals’ affirmance of the lower court’s decision
denying relief to the petitioner. Specifically, this Court held that:
“Conventional notions of finality of litigation have no
place where life or liberty is at stake and infringement of
constitutional rights [are] alleged... loss of liberty and
sometimes loss of life... are far too great to permit the
automatic application of an entire body of technical rules
whose primary relevance lies in the area civil litigation.”
Sanders v. United States, 373 U.S. 1, 24, 83 S. Ct. 1081 (1963); see also, Wade v.
Mayo, 334 U.S. 672, 681, 68 S. Ct. 1270, 1275, 92 L. Ed. 1647 (1948). Therefore,
petitioner urges this Court, having come to his final opportunity to obtain the relief
for which the law guarantees unto him, to vacate the erroneous decision of the
Eleventh Circuit and to direct that justice, already delayed, be served even at this
late date and time. Better that justice be late or delayed, than not at all!

24

CONCLUSION
WHEREFORE, based on the foregoing petition, facts and authorities, the
Court should GRANT the writ of certiorari to the Court of Appeals for the
Eleventh Circuit, or, otherwise, GVR this case with instructions to grant the
petition.
Respectfully submitted,
/A

1

7900 Harbor Island Drive,
Apt. 906A
North Bay Village, Florida
33141

25

